*

Appendix A

APPENDIX A

Case: 20-1460

Document: 25

Page: 1

Filed: 06/11/2020

NOTE: This disposition is nonprecedential.

fintteb States Court of Appeals
for tfje Jfeberal Circuit
GABRIEL M. ROBLES,
Claimant-Appellant
v.
ROBERT WILKIE, SECRETARY OF VETERANS
AFFAIRS,
Respondent-Appellee
2020-1460
Appeal from the United States Court of Appeals for
Veterans Claims in No. 19-4805, Judge Joseph L. Falvey,
Jr.
Decided: June 11, 2020
Gabriel M. Robles, Topeka, KS, pro se.
KARA WESTERCAMP, Commercial Litigation Branch,
Civil Division, United States Department of Justice, Wash­
ington, DC, for respondent-appellee. Also represented by
Joseph H. Hunt, Robert Edward Kirschman, Jr., Loren
Misha Preheim; Christina Lynn Gregg, Brian D.
GRIFFIN, Office of General Counsel, United States Depart­
ment of Veterans Affairs, Washington, DC.

Case: 20-1460

Document: 25

Page: 2

2

Filed: 06/11/2020

ROBLES v. WILKIE

Before PROST, Chief Judge, MAYER and LOURIE, Circuit
Judges.

Per Curiam.
Gabriel M. Robles appeals from the decision of the
United States Court of Appeals for Veterans Claims (“Vet­
erans Court”) denying his petition for extraordinary relief.
Robles u. Wilkie, No. 19-4805, 2019 WL 3806385 (Vet. App.
Aug. 14, 2019) (“Decision”). For the reasons below, we dis­
miss the appeal.

Background
On November 14, 2016, Robles filed at the United
States Department of Veterans Affairs (“VA”) a claim for
compensation pursuant to 38 U.S.C. § 1151 for a right wrist
injury. VA denied disability compensation for the wrist
condition. Robles filed a notice of disagreement (“NOD”) in
which he disagreed with VA’s decision and also asserted
entitlement to special monthly compensation (“SMC”)
based on housebound status or need for aid and attend­
ance. VA responded by informing Robles that his NOD was
not valid because the SMC issues had not been previously
presented to VA. Robles then filed another NOD in which
he continued to disagree with the denial of disability com­
pensation and assert entitlement to SMC. On June 8,
2019, a VA regional office issued two Statements of the
Case (“SOCs”). The first SOC continued denial of Robles’s
claim for disability compensation for his wrist injury. The
second SOC determined that Robles could not file a NOD
regarding the SMC issues because he had not filed a claim
for that benefit.
In early July 2019, Robles simultaneously filed two ap­
peals to the Board of Veterans’ Appeals (“Board”) as well
as a petition for extraordinary relief at the Veterans Court.
In each of his appeals to the Board, Robles wrote the

Case: 20-1460

Document: 25

Page: 3

Filed: 06/11/2020

3

ROBLES v. WILKIE

following in lieu of a description of why he thought that VA
decided his case incorrectly:
This Veteran has filed a request to the United
States Court of Appeals for Veterans Claims for
“Extraordinary Relief’ (Rule 21) to bypass this ben­
efits process by the Veterans Administration.
SAppx. 28, 30.
In his petition for extraordinary relief at the Veterans
Court, Robles made numerous allegations of misconduct by
VA employees and expressed general disagreement with
the June 8, 2019 SOCs. See SAppx. 12—18. The Veterans
Court dismissed-in-part and denied-in-part. As it per­
tained to Robles’s allegations of misconduct by VA employ­
ees, the Veterans Court dismissed the petition for lack of
jurisdiction. Decision, 2019 WL 3806385, at *1 (citing 38
U.S.C. § 7252(a)). As it pertained to Robles’s claims for VA
benefits, the Veterans Court denied the petition because
Robles does not lack adequate alternative means to attain
the desired relief and therefore is not entitled to extraordi­
nary relief. Id. (citing Cheney v. U.S. Dist. Court, 542 U.S.
367, 380-81 (2004)). Robles appealed.
Discussion
Our jurisdiction to review decisions of the Veterans
Court is limited. Wanless v. Shinseki, 618 F.3d 1333, 1336
(Fed. Cir. 2010). We may review a decision by the Veterans
Court concerning whether to grant a petition for extraordi­
nary relief when it raises a non-frivolous legal question.
See Beasley v. Shinseki, 709 F.3d 1154, 1158 (Fed. Cir.
2013); see also 38 U.S.C. § 7292(a). “In conducting such a
review, we do not interfere with the [Veterans Court’s] role
as the final appellate arbiter of the facts underlying a vet­
eran’s claim or the application of veterans’ benefits law to
the particular facts of a veteran’s case.” Beasley, 709 F.3d
at 1158; 38 U.S.C. § 7292(d)(2).

Case: 20-1460

Document: 25

Page: 4

4

Filed: 06/11/2020

ROBLES v. WILKIE

Here, the Veterans Court applied its own jurisdictional
statute to dismiss the allegations in Robles’s petition that
do not relate to any Board decision regarding a claim for
benefits. See Decision, 2019 WL 3806385 (citing 38 U.S.C.
§ 7252(a)). And the court applied Supreme Court precedent
to deny Robles’s attempt to bypass the Board and the es­
tablished appellate procedure for his claims. See id. (citing
Cheney, 542 U.S. 367 and 38 U.S.C. § 7104(a)). Accord­
ingly, because Robles has not identified a non-frivolous le­
gal question, we have no basis to reverse the Veterans
Court’s decision.
Conclusion
We have considered Robles’s remaining arguments, but
we find them unpersuasive. Thus, the appeal is dismissed.
DISMISSED
Costs
No costs.

®ntteb States Court of Appeals
for tlje Jfeberal Circuit
GABRIEL M. ROBLES,
Claimant-Appellant
v.
ROBERT WILKIE, SECRETARY OF VETERANS
AFFAIRS,
Respondent-Appellee

2020-1460
Appeal from the United States Court of Appeals for
Veterans Claims in No. 19-4805, Judge Joseph L. Falvey,
Jr.

MANDATE
In accordance with the judgment of this Court, entered
June 11, 2020, and pursuant to Rule 41 of the Federal
Rules of Appellate Procedure, the formal mandate is
hereby issued.
FOR THE COURT
August 3, 2020

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

/

Appendix B
i

APPENDIX B

Robles v. Wilkie

20-1460

Designatedfor electronic publication only
UNITED STATES COURT OF APPEALS FOR VETERANS CLAIMS
No. 19-4805
Gabriel M. Robles, Petitioner,
v.
Robert L. Wilkie,
Secretary of Veterans Affairs, Respondent.
Before FALVEY, Judge.
ORDER
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
On July 17, 2019, Gabriel M. Robles, who is self-represented, filed a petition for
extraordinary relief that the Court construes as a request for a writ of mandamus compelling the
Secretary to pay compensation based on Mr. Robles's claims. Mr. Robles makes wide ranging
allegations of misconduct by government employees, including criminal activity by VA
employees, and expresses disagreement with a June 8, 2019, Statement of the Case (SOC). But,
even though Mr. Robles is proceeding pro se and is thus entitled to a sympathetic reading of his
arguments, see De Perez v. Derwinski, 2 Vet.App. 85, 86 (1992), the Court will deny his petition
because we are without jurisdiction to address most of his claims and appealing to the Board of
Veterans' Appeals in response to the SOC is a viable alternative remedy for those that we can
address.
This Court has the authority to issue extraordinary writs in aid of its jurisdiction under the
All Writs Act, 28 U.S.C. § 1651(a). But, our jurisdiction is limited to review of Board decisions.
See 38 U.S.C. § 7252(a). So, our authority to issue extraordinary writs is limited to situations in
which the Court would have jurisdiction over the final Board decision. Thus, we will not address
any of the allegations of misconduct, criminal or otherwise, unless they relate to a VA benefits
claim that may be adjudicated in a Board decision subject to this Court's jurisdiction and will
dismiss those allegations.
And so, we are left only with Mr. Robles's allegation that VA replaced records in his file
and his general disagreement with a June 2019 SOC. We note that Mr. Robles did not attach the
SOC to his petition but he cites to one statute and two regulations to identify the benefits he would
like the Court to award: 38 U.S.C. §1151 and 38 C.F.R. §§ 3.352(a), 4.16. Presumably, then, Mr.
Robles has claims with VA for compensation related to a disability caused by VA medical care,

Robles v. Wilkie

20-1460

total disability based on individual unemployability, and entitlement to special monthly
compensation based on the need for aid and attendance. At any rate, the specifics of his denied
claims are not relevant at this time. This is because Mr. Robles fails the first of the three elements
that must be satisfied before a writ is warranted.
To receive a writ, a petitioner must lack adequate alternative means to attain the desired
relief. See Cheney v. U.S. Dist. Court, 542 U.S. 367, 380-81 (2004). This is to ensure that the writ
is not used as a substitute for an appeal. Id. But here, Mr. Robles has alternative means of resolving
his disagreement with the SOC—he can file an appeal to the Board. See 38 U.S.C. § 7104(a)
(establishing the scope of the Board's review over the Secretary's decisions). And from there, if
need be, he can take his appeal to this Court. See 38 U.S.C. § 7266(a) (explaining how a person
adversely affected by a Board decision may appeal to this Court). At each step of the way before
the Board, and the Court if necessary, Mr. Robles will have the opportunity to press his
disagreement with the denial of benefits and argue how VA employees altered his records. What
he may not do is use a writ as a substitute for these appeals. See Cheney, 542 U.S. at 380. Thus,
the Court will deny this portion of Mr. Robles's petition.
Upon consideration of the foregoing, it is
ORDERED that Mr. Robles's petition for extraordinary relief in the nature of a writ of
mandamus is DENIED as it pertains to claims for VA benefits and DISMISSED as it pertains to
allegations of misconduct by VA employees.
DATED: August 14,2019
BY THE COURT:

JOSEPH L. FALVEY, JR.
Judge
Copies to:
Gabriel M. Robles
VA General Counsel (027)

2

